               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Contracting Opportunities and
     Impact of the Service Contract Act

                       Audit Report




                                              November 2, 2011

Report Number CA-AR-12-001
                                                                      November 2, 2011

                                              Contracting Opportunities and Impact of
                                                             the Service Contract Act

                                                          Report Number CA-AR-12-001



IMPACT ON:
This audit may impact U.S. Postal              WHAT THE OIG RECOMMENDED:
Service purchasing policies with regard        We recommended the Postal Service
to the McNamara-O’Hara Service                 seek exemption from the SCA to allow
Contract Act (SCA) of 1965.                    flexibility to negotiate contract rates
                                               closer to market rates. We also
WHY THE OIG DID THE AUDIT:                     recommended the Postal Service review
The report responds to a request from          the benefits of outsourcing
Representative Darrell E. Issa. Our            cleaning/janitorial service positions and
objective was to review Postal Service’s       Postal Service vehicle driver positions
market research to determine if potential      and restructure those positions to
savings could be realized if they did not      achieve the most cost effective solution.
have to comply with the SCA. In                Lastly, we recommended that the Postal
addition, we identified positions for          Service ensure that appropriate financial
which Postal Service labor rates               data is collected to aid in making in-
exceeded the SCA rates and barriers to         sourcing/outsourcing decisions.
outsourcing those positions.
                                               WHAT MANAGEMENT SAID:
WHAT THE OIG FOUND:                            Management agreed to implement a
Postal Service market research                 policy change if Congress exempts the
indicated that opportunities exist for cost    Postal Service from the SCA. In
savings if the agency did not have to          addition, management stated that
comply with the SCA. In addition, our          recommendation 2 accurately describes
analysis showed that Postal Service            what the Postal Service has already
wages for cleaning/janitorial and postal       done and is continuing to do and stated
vehicle service (PVS) driver positions         that it is not clear from the report the
were higher than SCA rates. We                 OIG found any deficiencies to correct.
estimate the Postal Service could save
approximately $675 million annually if it      AUDITORS’ COMMENTS:
outsourced cleaning/janitorial and PVS         Management needs to develop and fully
driver positions. Barriers to outsourcing      implement plans to work with Congress
the positions include labor union              to seek exemption from the SCA, for
agreements, concerns that new unions           reviewing the benefits of outsourcing
will be formed, workforce retention            cleaning/janitorial and PVS driver
issues, fluctuations in market or              positions, and to collect the financial
economic conditions, and the potential         data needed for insourcing/outsourcing
for congressional constituency                 decisions.
concerns.                                      Link to review the entire report
November 2, 2011

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           DOUGLAS A. TULINO
                           VICE PRESIDENT, LABOR RELATIONS




FROM:                      Mark W. Duda
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Contracting Opportunities and Impact of the
                           Service Contract Act
                           (Report Number CA-AR-12-001)

This report presents the results of our audit of Contracting Opportunities and Impact of
the Service Contract Act (Project Number 11YS001CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Anthony J. Vegliante
    Craig D. Partridge
    Mark A. Guilfoil
    J. Dwight Young
    Susan Witt
    Corporate Audit and Response Management
Contracting Opportunities and Impact of the Service                                                                 CA-AR-12-001
 Contract Act



                                                TABLE OF CONTENTS




Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Opportunities Exist for Cost Savings if the Postal Service Did Not Have to Comply with
the SCA ........................................................................................................................... 1

Positions for Which Postal Service Labor Rates Exceed SCA Rates and Barriers to
Outsourcing ..................................................................................................................... 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objectives, Scope, and Methodology .......................................................................... 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Monetary Impact ....................................................................................... 11

Appendix C: Management’s Comments ........................................................................ 12
Contracting Opportunities and Impact of the Service                                                  CA-AR-12-001
 Contract Act


Introduction

This report presents the results of our audit of contracting opportunities and the impact
of the McNamara-O’Hara Service Contract Act (SCA) of 19651 (Project Number
11YS001CA000). The report responds to a request from Representative Darrell E. Issa.
Our objective was to review U.S. Postal Service’s market research to determine if
potential savings could be realized if they did not have to comply with the SCA. In
addition, we identified positions for which Postal Service labor rates exceeded the SCA
rates and barriers to outsourcing those positions. This audit addresses both financial
and operational risks. See Appendix A for additional information about this audit.

Title 39 of the U.S.C. requires the Postal Service to follow the requirements of the
SCA.2 The SCA requires general contractors and subcontractors performing services on
prime contracts in excess of $2,500 to pay service employees no less than the wage
rates and fringe benefits found prevailing in the locality as determined by the U.S.
Department of Labor (DOL) or the rates contained in a predecessor contractor's
collective bargaining agreement. The SCA applies to every contract the U.S. or the
District of Columbia enters into with the principal purpose of furnishing services to the
U.S. through the use of service employees.3

Conclusion

Postal Service market research indicated that opportunities exist for cost savings if it did
not have to comply with the SCA. In addition, our analysis showed that Postal Service
wages for cleaning/janitorial and postal vehicle service (PVS) driver positions were
higher than SCA rates. We estimate the Postal Service could save approximately
$675 million annually if it outsourced cleaning/janitorial and PVS driver positions.
Barriers to outsourcing the positions include current labor union agreements, concerns
that new unions will be formed, workforce retention issues, fluctuations in market or
economic conditions, and the potential for congressional constituency concerns.

Opportunities Exist for Cost Savings if the Postal Service Did Not Have to Comply
with the SCA

Market rates for the following commodities reviewed were less than the SCA rate, as
shown in Table 1.




1
  41 U.S.C. §§ 351-358.
2
  39 U.S.C. § 410(b)(5)(B).
3
  Contracts with individuals who do not have service employees are not subject to the SCA. For example, a contract
with an owner/operator of a truck would not be subject to the SCA.
                                                           1
Contracting Opportunities and Impact of the Service                                                    CA-AR-12-001
 Contract Act



                                 Table 1. SCA Rates vs. Market Rates

                            Estimated                                  Market           Rate Difference
      Commodity           FY 2010 Annual           SCA Hourly          Hourly           (SCA > Market)
                          Contract Spend             Rate               Rate          Dollars   Percentage
    Snow Removal
    & Landscaping              $19.5 million               $16.30       $12.18           $4.12            33.83%
    Cleaning/
    Janitorial               $105.9 million                $15.74       $11.80           $3.94            33.39%
    Highway
    Contract Route
    (HCR) Truck
    Driver (Box)4              $47.3 million               $20.16       $15.24           $4.92            32.28%
    Unarmed
    Guards                     $22.5 million               $16.91       $12.92           $3.99            30.88%
    HCR Tractor
    Trailer Driver5          $300.8 million                $20.76       $16.67           $4.09            24.54%
    Fire Alarm
    Maintenance                  $60 million               $25.04       $23.44           $1.60              6.83%

Additionally, we reviewed data supporting potential cost savings for Mail Transportation
Equipment Service Center (MTESC) contracts if the Postal Service was not required to
comply with the SCA. An MTESC supplier provided support for that data. We found,
however, that the data was incomplete. Specifically, several of the research sources of
information were no longer available. Accordingly, potential cost savings could not be
validated.

We were unable to project potential cost savings for the above commodities because
data, such as number of contract hours, was not always available.6 Accordingly, we
could not identify a methodology to reasonably estimate the labor from other contract
costs making up the annual spend amount for each contract. Based on the data that
was available, however, significant differences exist between the SCA and market rates.

Although the Postal Service is not funded by taxpayer dollars, Title 39 of the U.S.C.
mandates that it pay at least the SCA rate for service contracts. Paying higher than
market rates will continue to be a negative factor to the competitive interests of the
Postal Service and add to its debt. To better serve the mailing public, the Postal Service
must be able to seek cost saving measures wherever possible. Based on available


4
  The Postal Service provided data for 18 localities. As such, the FY 2010 spend is only representative of the
18 localities and the SCA and market rates are averages of the 18 localities. In addition, the market data provided by
the Postal Service did not include fringe. Therefore, for consistency and comparison purposes, we did not include the
health and welfare portion in the SCA rates. The HCR truck driver (box) and tractor trailer driver positions are
comparable to PVS driver positions.
5
  Ibid.
6
  For example, cleaning/janitorial contracts are performance based and contract hours are not tracked.


                                                          2
Contracting Opportunities and Impact of the Service                                                     CA-AR-12-001
 Contract Act


data, the Postal Service labor costs could be reduced if it did not have to comply with
the SCA.

Positions for Which Postal Service Labor Rates Exceed SCA Rates and Barriers
to Outsourcing

Our analysis, as shown in Table 2, found that Postal Service wages for
cleaning/janitorial and PVS driver positions were significantly higher than SCA rates.

                           Table 2. Postal Service Rates vs. SCA Rates

                          Number of               Postal                                 Rate Difference
    Commodity            Postal Service           Service                             (Postal Service > SCA)
                          Employees                Rate           SCA Rate            Dollars    Percentage
Cleaning/
Janitorial7                         14,686          $44.51               $15.74          $28.77            182.78%
PVS Driver8                          7,004          $47.89               $26.63          $21.26             79.83%

Throughout the federal government as well as private industry, barriers to outsourcing
are common. The reasons for the barriers vary. Some of the more common barriers
include:

   Existing labor union agreements and associated memorandums of understanding.

   Potential formation of new unions.

   Workforce retention (for example, finding and retaining qualified, reliable personnel).

   Fluctuations in market or economic conditions.

   Potential congressional constituency concerns.

The Postal Service’s financial outlook is poor and labor costs9 account for 80 percent of
its costs. If management does not take action, such as achieving savings through
outsourcing, the General Accountability Office (GAO) estimates that the Postal
Service’s financial losses could increase to $33 billion over the next decade.10 We
estimate the Postal Service could save approximately $675 million annually, if it


7
  We obtained the Postal Service wage rate for cleaning/janitorial personnel from the National Average Labor Rates
memorandum, dated January 25, 2011, published by Postal Service Headquarters Finance. Both the Postal Service
and SCA rates include fringe benefits.
8
  PVS driver includes both truck driver (box) and tractor trailer drivers. We obtained the Postal Service wage rate for
PVS drivers from the National Average Labor Rates memorandum, dated January 25, 2011, published by Postal
Service Headquarters Finance. Both the Postal Service and SCA rates include fringe benefits.
9
  Labor costs include wages, retiree health benefits, retiree pension payments, health benefits of current employees,
and workers’ compensation. The largest category of labor costs is wages, making up 63 percent.
10
   U.S. Postal Service: Strategies and Options to Facilitate Progress toward Financial Viability (Report Number GAO-
10-455, dated April 12, 2010).


                                                           3
Contracting Opportunities and Impact of the Service                                      CA-AR-12-001
 Contract Act


outsourced cleaning/janitorial and PVS driver positions at competitive market rates. See
Appendix B for details.

Recommendations

We recommend the vice president, Supply Management:

1. Seek exemption from the Service Contract Act to allow flexibility to negotiate
   contract rates closer to market rates.

We recommend the vice president, Labor Relations:

2. Review the benefits of outsourcing cleaning/janitorial service positions and postal
   service vehicle driver positions and work with Supply Management to restructure
   those positions to achieve the most cost effective solution.

3. Working with Supply Management and Postal Service program officials, ensure that
   appropriate financial data is collected to aid in making in-sourcing/outsourcing
   decisions.

Management’s Comments

Management did not agree or disagree with recommendation 1 but stated Supply
Management believes that removing the Postal Service from the requirements of the
Davis Bacon Act11 and SCA should allow for more efficient and cost effective
contracting. Management also stated that recommendation 2 accurately describes what
the Postal Service has already done and what it is continuing to do. Specifically,
management stated the report and associated calculation of monetary impact fail to
consider the impact of the Postal Service’s labor agreement with the American Postal
Workers Union (APWU) that became effective May 23, 2011. They stated the new
agreement provides for the establishment and use of non-career employees on a much
wider scale than previously permitted and new employees will be paid at rates much
lower than current career rates and, in some cases, lower than SCA rates. In addition,
management stated the new APWU career employees will be paid less than career
employees. Management stated the new provisions impact the report in two
fundamental and significant ways:

      They reflect that management has accomplished precisely what recommendation 2
       suggests. Through the new labor agreement, the Postal Service has restructured the
       work force and provided for a lower cost employee, while continuing to establish
       outsourcing or in sourcing decisions on a cost effective basis.

      The new provisions render the costing methodology used in Table 2 of the report
       outdated. Because future custodial and PVS driver positions will not be paid based


11
     The scope of our review did not include contracts subject to the Davis Bacon Act.


                                                             4
Contracting Opportunities and Impact of the Service                             CA-AR-12-001
 Contract Act


    on current career wages, the claimed potential savings of $675 million is grossly
    overstated.

With regard to recommendation 3, management stated it is not clear from the report the
U.S. Postal Service Office of Inspector General (OIG) found any deficiencies the Postal
Service needs to correct. In addition, management stated the report shows the Postal
Service does do market rate research and it has established processes in place, in
accordance with labor agreements, to facilitate outsourcing and insourcing decisions,
which would include any relevant financial data needed. See Appendix C for
management’s comments, in their entirety.

Evaluation of Management’s Comments

In response to recommendation 1, management agreed to implement a policy change if
Congress would exempt the Postal Service from the SCA. Management asked us to
close the recommendation based on this. To close the recommendation, management
needs to inform us of plans to work with Congress to seek the exemption and provide
sufficient evidence that those plans have been fully implemented.

Management did not agree to take any actions regarding recommendation 2 and voiced
concern over the potential cost savings identified in our draft report. Our draft report
showed a potential $6.75 billion savings over a 10-year period. We have edited the final
report to claim only an annualized savings of $675 million.

In addition to concerns stated regarding the amount of potential cost savings claimed in
the report, management stated that they believe the recent APWU agreement allows
the flexibility needed to reduce cleaning/janitorial and postal vehicle driver costs.
However, given its current financial situation and its efforts to significantly downsize the
current workforce it is unclear when and if the Postal Service will staff these positions at
the rates noted in management’s comments. Specifically, the Postal Service has
initiated significant retail and network restructuring initiatives and plans to reduce its
workforce by 220,000 people. Therefore, we cannot base our monetary impact
estimates on the rates management provided. As market and SCA rates were lower
than current rates paid to Postal Service employees, it would be prudent for the Postal
Service to consider outsourcing the positions to achieve additional monetary savings.
To close the recommendation, management needs to inform us of plans for reviewing
the benefits of outsourcing the positions and restructuring the positions to achieve the
most cost effective solution and provide sufficient evidence that those plans have been
fully implemented.

In addition, management did not agree to take any actions regarding
recommendation 3. During the audit, we worked extensively with Postal Service
employees to obtain Postal Service, SCA, and market wage rate documentation. The
Postal Service did not have a standardized process for collecting and analyzing the
documentation. For example, we were unable to determine the number of contract
hours for the performance based cleaning/janitorial contracts. A standardized process



                                                      5
Contracting Opportunities and Impact of the Service                        CA-AR-12-001
 Contract Act


for each commodity would help ensure that all financial data, such as hourly rates and
number of contract hours positions, is collected and would aid management in making
insourcing/outsourcing decisions. Management asked that we close the
recommendation based on their response. To close the recommendation, management
needs to inform us of plans to collect the financial data needed for
insourcing/outsourcing decisions and provide sufficient evidence that those plans have
been fully implemented.

The OIG considers all three recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                      6
Contracting Opportunities and Impact of the Service                                                 CA-AR-12-001
 Contract Act


                                Appendix A: Additional Information
Background

The Postal Reorganization Act of 1970 abolished the U.S. Post Office Department, a
part of the cabinet, and created the U.S. Postal Service, a corporation-like, independent
agency. Unlike the Post Office Department, the Postal Service is not funded by taxpayer
dollars; rather, the Postal Service operates as a business where its funding comes from
the revenue generated by selling postage and Postal Service products. However,
although the Postal Service is supposed to operate like a business, the federal
government imposes certain restrictions on it such as the requirement to comply with
the SCA.12

Title 39 of the U.S.C. requires the Postal Service to follow the requirements of the
SCA.13 The SCA requires general contractors and subcontractors performing services
on prime contracts in excess of $2,50014 to pay service employees no less than the
wage rates and fringe benefits found prevailing in the locality as determined by the DOL
or the rates contained in a predecessor contractor's collective bargaining agreement.
The SCA applies to every contract the U.S. or the District of Columbia enters into with
the principal purpose of furnishing services to the U.S. using service employees.

Objectives, Scope, and Methodology

Our objectives were to review Postal Service’s market research to determine if potential
savings could be realized if they did not have to comply with the SCA. In addition, we
identified positions for which Postal Service labor rates exceeded the SCA rates and
barriers to outsourcing those positions. To accomplish our objectives, we:

    Validated wage rates and potential cost-saving opportunities associated with specific
     commodities15 identified by the Postal Service.16 Specifically, we obtained
     supporting documentation from the Postal Service including:

     o   DOL wage determinations.
     o   Bureau of Labor Statistics (BLS) market rates.
     o   National Payroll Hours Summary Report.
     o   Enterprise Data Warehouse (EDW) reports.
     o   Contract Authoring Management Systems (CAMS) data.
     o   Employee Master File data.
     o   Web-Based Complement Information System data.
     o   Contract Files.

12
   41 U.S.C. § 351-358.
13
   39 U.S.C. § 410.
14
   If the original amount of $2,500 (established in 1965) was increased commensurate with the consumer price index,
this amount today would be $17,712.
15
   The commodities were Fire Alarm Maintenance, , Snow Removal/Landscaping, Cleaning/Janitorial, Unarmed
Guards, and Highway Transportation (PVS and HCRs).
16
   We obtained the Postal Service wage rates for cleaning/janitorial and PVS driver positions from the National
Average Labor Rates memorandum, dated January 25, 2011, published by Postal Service Headquarters Finance.


                                                         7
Contracting Opportunities and Impact of the Service                         CA-AR-12-001
 Contract Act


    o Payscale.com.
    o Monster.com.
    o CareerBuilder.com.

   Reviewed provisions of the SCA, Postal Service’s Supplying Principles and
    Practices, and APWU collective bargaining agreement.

   Interviewed Supply Management portfolio and category management center
    managers and personnel.

   Interviewed commodity service center personnel to discuss the cost-savings
    analysis prepared for MTESC.

We conducted this performance audit from May through October 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 29, 2011, and included their
comments where appropriate.

We assessed the reliability of data by comparing source documents to data in the
CAMS and EDW to validate monetary amounts as well as contract award dates, bill
rates, and so forth. We validated DOL rates and BLS data to market research data. We
determined that the data were sufficiently reliable for the purposes of this report.




                                                      8
     Contracting Opportunities and Impact of the Service                                    CA-AR-12-001
      Contract Act


     Prior Audit Coverage

                                         Final
                       Report           Report             Monetary
 Report Title          Number            Date               Impact            Report Results
Custodial             DA-AR-09-       4/07/2009       $48,267,945     Larger Postal Service facilities in
Maintenance:          007                             funds put to    the New York District incurred
New York District                                     better use      increased costs for custodial
                                                                      services because hourly rates for
                                                                      full-time employees were $10
                                                                      higher than prevailing contractor
                                                                      rates. The condition existed
                                                                      because the collective
                                                                      bargaining agreement between
                                                                      the Postal Service and the
                                                                      APWU restricted the use of
                                                                      contract cleaning services to
                                                                      smaller Postal Service facilities.
                                                                      Management agreed with the
                                                                      findings and recommendations.
Custodial             DA-AR-09-       8/13/2009       $996,588,215    Larger Postal Service facilities
Maintenance:          011(R)                          funds put to    incurred increased costs for
Nationwide                                            better use      custodial service because hourly
                                                                      rates for full-time Postal Service
                                                                      custodial employees nationwide
                                                                      were $21 higher than current
                                                                      contractual custodian rates. This
                                                                      condition existed, because the
                                                                      collective bargaining agreement
                                                                      between the Postal Service and
                                                                      APWU restricted the use of
                                                                      contract cleaning services to
                                                                      smaller Postal Service facilities.
                                                                      Because the OIG previously
                                                                      addressed expanding contract
                                                                      services in the New York District
                                                                      audit report, it made no
                                                                      additional recommendations for
                                                                      this finding. Management agreed
                                                                      there were monetary findings but
                                                                      believed the monetary impact
                                                                      may be overstated.




                                                           9
     Contracting Opportunities and Impact of the Service                                      CA-AR-12-001
      Contract Act


U.S. Postal           GAO-10-         4/12/2010                 N/A    Action by Congress and the
Service:              455                                              Postal Service is urgently
Strategies and                                                         needed to reach agreement on
Options to                                                             actions to achieve Postal Service
Facilitate                                                             financial viability and require that
Progress toward                                                        any binding arbitration resulting
Financial Viability                                                    from collective bargaining would
                                                                       consider the Postal Service’s
                                                                       financial condition.
Postal Service        HR-AR-11-       9/19/2011       $2,591,971,598   Postal Service management
Work Rules and        002                                              needs to address inconsistencies
Compensation                                                           in carrier compensation by
Systems                                                                conducting a study to determine
                                                                       optimum standards for carrier
                                                                       performance and pursue
                                                                       changes necessary to achieve a
                                                                       compensation system that
                                                                       maximizes carrier efficiency. The
                                                                       OIG estimated the Postal
                                                                       Service could potentially save
                                                                       more than $2.5 billion annually if
                                                                       letter carrier compensation was
                                                                       changed to match the
                                                                       compensation system used by
                                                                       the rural carriers and such a
                                                                       change could also incentivize
                                                                       efficient performance. In addition
                                                                       to the comparison between city
                                                                       and rural compensation, the OIG
                                                                       also compared the costs for
                                                                       contracted delivery services to
                                                                       both the city and rural systems.
                                                                       The cost per delivery for these
                                                                       routes at 36 cents was even
                                                                       lower than that for rural routes.
                                                                       Thus, there are likely additional
                                                                       savings to be gained from
                                                                       transitioning to a more efficient
                                                                       optimal solution.




                                                           10
Contracting Opportunities and Impact of the Service                                                 CA-AR-12-001
 Contract Act


                                    Appendix B: Monetary Impact

Positions for which Postal Service Labor Rates Exceed the Service Contract
Act Rates

The Postal Service could save an average of approximately $675 million annually over
the next 10 years, if it outsourced cleaning/janitorial and PVS driver positions at the
SCA rates.

                     Number of           Average
                      Postal             Annual              Postal                        FYs 2012 –2021
 Commodity
                      Service           Hours Per            Service       SCA              Total Savings
                     Employees          Employee              Rate         Rate              (Phased In)
Cleaning/
Janitorial          14,686          1,729 $44.51       $15.74                                $5,024,235,67117
PVS Drivers           7,004         1,756 $47.89       $26.63                                   1,726,200,673
  Total                                                                                      $6,750,436,34418
Total Annualized Cost Savings Claimed as Monetary Impact                                      $675,436,34419

The savings identified above are based on a 10-year cash flow projection,20 discounted
to present value, by applying the following factors published by Postal Service
Headquarters Finance.

             Rates by Type21                                                       Factor
Discount Rate/Cost of Borrowing                                                   3.875%
Postal Service Labor Escalation Rate                                               1.7%
Contract Labor Escalation Rate                                                     2.7%




17
   This amount includes reductions of $9,777,316, which we previously reported in, Custodial Maintenance: New York
District (Report Number DA-AR-09-007, dated 04/07/2009) and $147,959,767, which we previously reported in,
Custodial Maintenance: Nationwide (Report Number DA-AR-09-011(R), dated 08/13/2009).
18
   Impact Category: Funds put to better use represents funds that could be used more efficiently by implementing
recommended actions.
19
   Management’s comments on our draft report indicated concern regarding the use of our standard 10 year cost
savings projection. Therefore, to be conservative, we are only claiming the annualized amount of potential savings.
20
   Our cash flow projection was calculated over a 10-year period beginning in FY 2012 and ending in FY 2021.
However, we did not calculate any savings until FY 2013 to consider the time needed for the Postal Service to
renegotiate the current APWU agreement. Beginning in FY 2013, an attrition rate of 50 percent was used.
21
   Rates published May 7, 2010.


                                                        11
Contracting Opportunities and Impact of the Service            CA-AR-12-001
 Contract Act


                           Appendix C: Management’s Comments




                                                      12
Contracting Opportunities and Impact of the Service        CA-AR-12-001
 Contract Act




                                                      13
Contracting Opportunities and Impact of the Service        CA-AR-12-001
 Contract Act




                                                      14
